August 5, 2014


The Honorable Darrell Issa                    The Honorable Thomas R. Carper
Chairman                                      Chairman
Committee on Oversight and                    Homeland Security and
  Government Reform                             Governmental Affairs Committee
United States House of Representatives        United States Senate
2157 Rayburn House Office Building            340 Dirksen Senate Office Building
Washington, DC 20515                          Washington, DC 20510


The Honorable Elijah Cummings                 The Honorable Tom Coburn
Ranking Member                                Ranking Member
Committee on Oversight and                    Homeland Security and
  Government Reform                             Governmental Affairs Committee
United States House of Representatives        United States Senate
2157 Rayburn House Office Building            340 Dirksen Senate Office Building
Washington, DC 20515                          Washington, DC 20510


Dear Mr. Chairmen and Ranking Members:

        The undersigned federal Inspectors General write regarding the serious
limitations on access to records that have recently impeded the work of Inspectors
General at the Peace Corps, the Environmental Protection Agency, and the
Department of Justice. Each of us strongly supports the principle that an Inspector
General must have complete, unfiltered, and timely access to all information and
materials available to the agency that relate to that Inspector General’s oversight
activities, without unreasonable administrative burdens. The importance of this
principle, which was codified by Congress in Section 6(a)(1) of the Inspector General
Act of 1978, as amended (the IG Act), cannot be overstated. Refusing, restricting, or
delaying an Inspector General’s access to documents leads to incomplete, inaccurate,
or significantly delayed findings or recommendations, which in turn may prevent the
agency from promptly correcting serious problems and deprive Congress of timely
information regarding the agency’s performance.

       We have learned that the Inspectors General for the Peace Corps, the
Environmental Protection Agency (in his role as Inspector General for the Chemical
Safety and Hazard Investigation Board) and the Department of Justice have recently
faced restrictions on their access to certain records available to their agencies that
were needed to perform their oversight work in critical areas. In each of these
instances, we understand that lawyers in these agencies construed other statutes and
law applicable to privilege in a manner that would override the express authorization
contained in the IG Act. These restrictive readings of the IG Act represent potentially
serious challenges to the authority of every Inspector General and our ability to
conduct our work thoroughly, independently, and in a timely manner.
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014

       In the Peace Corps example, the Peace Corps General Counsel interpreted the
Kate Puzey Peace Corps Volunteer Protection Act of 2011, which, among other things,
provided an extensive oversight role for the Peace Corps Office of Inspector General
(Peace Corps OIG) in examining the Peace Corps’ handling of reports of sexual assault
against Peace Corps volunteers, as prohibiting the agency from giving access to
records clearly authorized under the IG Act. While the Peace Corps has entered into a
Memorandum of Understanding with its OIG granting access to a greater amount of
information than initially provided, the agency still refuses to provide its OIG with full
access to sexual assault records. The Department of Justice Office of the Inspector
General (DOJ OIG) had essential records withheld by agency components in three
different reviews due to a cramped reading of the IG Act by agency lawyers, despite the
fact that such records had been produced to the DOJ OIG by the agency in many prior
reviews without objection. While Department of Justice leadership ultimately granted
permission for these particular records to be made available to the DOJ OIG, it did so
based on a finding that the three reviews were of assistance to the Department of
Justice’s leadership, not because of the DOJ OIG’s independent authority under the
IG Act , thereby undermining the DOJ OIG’s independence. Issues such as these are
likely to recur unless agencies recognize the authority of Inspectors General under
Section 6(a)(1) to access all agency records.

       With respect to the Environmental Protection Agency Office of Inspector General
(EPA OIG), the Chemical Safety and Hazard Investigation Board (CSB) refused to
provide requested documents relating to an EPA OIG investigation, arguing that
attorney-client privilege defeated the statutorily mandated Inspector General access.
While valid privilege claims might in certain circumstances appropriately limit the EPA
OIG’s subsequent and further release of documents, a claim of privilege provides no
basis to withhold documents from the EPA OIG in the first instance. Unable to obtain
access to these CSB documents, the EPA OIG ultimately filed a “Seven Day Letter”
under Section 5(d) of the IG Act in September 2013, noting and objecting to the
interference and seeking Congressional assistance. On June 18, 2014, the House
Oversight and Government Reform Committee held a hearing that addressed the EPA
Seven Day Letter along with related issues.

       Moreover, the issues facing the DOJ OIG, the EPA OIG, and the Peace Corps
OIG are not unique. Other Inspectors General have, from time to time, faced similar
obstacles to their work, whether on a claim that some other law or principle trumped
the clear mandate of the IG Act or by the agency’s imposition of unnecessarily
burdensome administrative conditions on access. Even when we are ultimately able to
resolve these issues with senior agency leadership, the process is often lengthy, delays
our work, and diverts time and attention from substantive oversight activities. This
plainly is not what Congress intended when it passed the IG Act.

                                            2
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014

       This nation’s 35 years of experience since the IG Act was passed has
demonstrated that effective and independent oversight by Inspectors General saves
taxpayers money and improves the operations of the federal government. Because
meaningful oversight depends on complete and timely access to all agency materials
and data, Section 6(a)(1) of the IG Act expressly provides for such access. Agency
actions that limit, condition, or delay access thus have profoundly negative
consequences for our work: they make us less effective, encourage other agencies to
take similar actions in the future, and erode the morale of the dedicated professionals
that make up our staffs.

       Therefore, we strongly and unequivocally support our fellow Inspectors General
at the Peace Corps, the Environmental Protection Agency, and the Department of
Justice in their efforts to gain access to documents that are available to their agencies
and that relate to their ongoing investigations and reviews, without undue
administrative burdens and delays. Limiting access in this manner is inconsistent
with the IG Act, at odds with the independence of Inspectors General, and risks
leaving the agencies insulated from scrutiny and unacceptably vulnerable to
mismanagement and misconduct – the very problems that our offices were established
to review and that the American people expect us to be able to address.

       Section 6(a)(1) of the IG Act reflects the clear intent of Congress that an
Inspector General is entitled to timely and unimpeded access to all records available to
an agency that relate to that Inspector General’s oversight activities. The constricted
interpretations of Section 6(a)(1) by these and other agencies conflict with the actual
language and Congressional intent. The IG Act is clear: no law restricting access to
records applies to Inspectors General unless that law expressly so states, and that
unrestricted access extends to all records available to the agency, regardless of
location or form.     The Senate Committee on Appropriations, Subcommittee on
Commerce, Justice, and Science, so recognized in Section 217 of S. 2437 regarding
access to records by the DOJ OIG. A strong, generally applicable reaffirmation of this
Congressional intent, coupled with the use of all available powers to enforce such
access when agencies refuse to comply, will assist Inspectors General in obtaining
prompt and complete agency cooperation.

                           Respectfully,

                           Michael G. Carroll, Acting Inspector General,
                                 Agency for International Development
                           Hubert Sparks, Inspector General,
                                 Appalachian Regional Commission
                           Kevin Mulshine, Inspector General,
                                 Architect of the Capitol

                                           3
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014

                       The Honorable Todd J. Zinser, Inspector General,
                              Department of Commerce
                       The Honorable Deborah Jeffrey, Inspector General,
                              Corporation for National and Community Service
                       Mary Mitchelson, Inspector General,
                              Corporation for Public Broadcasting
                       Kristi M. Waschull, Inspector General
                              Defense Intelligence Agency
                       David Sheppard, Acting Inspector General,
                              The Denali Commission
                       The Honorable Arthur A. Elkins, Jr., Inspector General,
                              Environmental Protection Agency
                       Milton Mayo, Inspector General,
                              Equal Employment Opportunity Commission
                       Michael T. McCarthy, Acting Inspector General,
                              Export-Import Bank of the United States
                       Elizabeth Dean, Inspector General,
                              Farm Credit Administration
                       Michael P. Stephens, Acting Inspector General,
                              Federal Housing Finance Agency
                       Dana Rooney-Fisher, Inspector General,
                              Federal Labor Relations Authority
                       Jon Hatfield, Inspector General
                              Federal Maritime Commission
                       Kelly Tshibaka, Acting Inspector General,
                              Federal Trade Commission
                       The Honorable John Roth, Inspector General,
                              Department of Homeland Security
                       The Honorable David A. Montoya, Inspector General,
                              Department of Housing and Urban Development
                       The Honorable Michael E. Horowitz, Inspector General,
                              Department of Justice
                       The Honorable Scott Dahl, Inspector General,
                              Department of Labor
                       Jeffrey E. Schanz, Inspector General
                              Legal Services Corporation
                       The Honorable Paul K. Martin, Inspector General
                              National Aeronautics and Space Administration
                       James Springs, Acting Inspector General,
                              National Archives and Records Administration


                                       4
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014

                       Jim Hagen, Inspector General
                              National Credit Union Administration
                       Tonie Jones, Inspector General,
                              National Endowment for the Arts
                       Laura Davis, Inspector General,
                              National Endowment for the Humanities
                       Dawn R. Eilenberger, Inspector General,
                              National Geospatial-Intelligence Agency
                       David Berry, Inspector General,
                              National Labor Relations Board
                       Adam G. Harris, Inspector General,
                              National Reconnaissance Office
                       Allison Lerner, Inspector General,
                              National Science Foundation
                       Dr. George Ellard, Inspector General,
                              National Security Agency
                       The Honorable Hubert T. Bell, Inspector General,
                              Nuclear Regulatory Commission
                       The Honorable I. Charles McCullough, III, Inspector
                              General, Office of the Inspector General of the
                              Intelligence Community
                       The Honorable Patrick E. McFarland, Inspector General
                              Office of Personnel Management
                       Kathy A. Buller, Inspector General,
                              Peace Corps
                       Deborah Stover-Springer, Acting Inspector General,
                              Pension Benefit Guaranty Corporation
                       Jack Callender, Inspector General,
                              Postal Regulatory Commission
                       David Williams, Inspector General
                              U.S. Postal Service
                       The Honorable Martin J. Dickman, Inspector General
                              Railroad Retirement Board
                       Carl W. Hoecker, Inspector General
                              Securities and Exchange Commission
                       John F. Sopko, Special Inspector General
                              Special Inspector General for Afghanistan
                              Reconstruction




                                      5
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014

                         The Honorable Christy Romero, Special Inspector General,
                               Special Inspector General for the Troubled Asset
                               Relief Program
                         The Honorable Steve A. Linick, Inspector General,
                               Department of State
                         The Honorable Richard Moore, Inspector General,
                               Tennessee Valley Authority
                         The Honorable Eric M. Thorson, Inspector General,
                               Department of the Treasury
                         The Honorable J. Russell George, Inspector General,
                               Treasury Inspector General for Tax Administration
                         Richard J. Griffin, Acting Inspector General,
                               Department of Veterans Affairs



cc:   The Honorable Beth Cobert
      Deputy Director for Management
      Office of Management and Budget

      The Honorable Carrie Hessler-Radelet
      Director, Peace Corps

      The Honorable Eric H. Holder, Jr.
      Attorney General

      The Honorable David Mader
      Controller, Office of Management and Budget

      The Honorable Rafael Moure-Eraso
      Chair, Chemical Safety and Hazard Investigation Board

      The Honorable Barbara Boxer
      Chair, Senate Environment and Public Works Committee

      The Honorable Ken Calvert
      Chair, House Subcommittee on Interior, Environment, and
             Related Agencies of the House Committee on Appropriations

      The Honorable John Conyers, Jr.
      Ranking Member, House Committee on the Judiciary


                                          6
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014


     The Honorable Bob Corker
     Ranking Member, Senate Committee on Foreign Relations

     The Honorable Eliot L. Engel
     Ranking Member, House Committee on Foreign Affairs

     The Honorable Chaka Fattah
     Ranking Member, House Subcommittee on Commerce, Justice, Science, and
           Related Agencies of the House Committee on Appropriations

     The Honorable Bob Goodlatte
     Chair, House Committee on the Judiciary

     The Honorable Lindsay Graham
     Ranking Member, Senate Subcommittee on State, Foreign Operations, and
           Related Programs of the Senate Committee on Appropriations

     The Honorable Kay Granger
     Chair, House Subcommittee on State, Foreign Operations, and
            Related Programs of the House Committee on Appropriations

     The Honorable Charles E. Grassley
     Ranking Member, Senate Committee on the Judiciary

     The Honorable Patrick Leahy
     Chair, Senate Committee on the Judiciary
     Chair, Senate Subcommittee on State, Foreign Operations, and Related
            Programs of the Senate Committee on Appropriations

     The Honorable Nita Lowey
     Ranking Member, House Subcommittee on State, Foreign Operations, and
           Related Programs of the House Committee on Appropriations

     The Honorable Robert Menendez
     Chair, Senate Committee on Foreign Relations

     The Honorable Barbara Mikulski
     Chair, Senate Subcommittee on Commerce, Justice, Science, and
            Related Agencies of the Senate Committee on Appropriations


                                        7
The Honorable Thomas R. Carper
The Honorable Darrell Issa
The Honorable Tom Coburn
The Honorable Elijah Cummings
August 5, 2014


     The Honorable Jim Moran
     Ranking Member, House Subcommittee on Interior, Environment, and
           Related Agencies of the House Committee on Appropriations

     The Honorable Lisa Murkowski
     Ranking Member, Senate Subcommittee on Interior, Environment, and
           Related Agencies of the Senate Committee on Appropriations

     The Honorable Jack Reed
     Chair, Senate Subcommittee on Interior, Environment, and Related
            Agencies of the Senate Committee on Appropriations

     The Honorable Edward R. Royce
     Chair, House Committee on Foreign Affairs

     The Honorable Richard C. Shelby
     Vice Chair, Senate Subcommittee on Commerce, Justice, Science, and
           Related Agencies of the Senate Committee on Appropriations

     The Honorable Fred Upton
     Chair, House Energy and Commerce Committee

     The Honorable David Vitter
     Ranking Member, Senate Environment and Public Works Committee

     The Honorable Henry Waxman
     Ranking Member, House Energy and Commerce Committee

     The Honorable Frank Wolf
     Chair, House Subcommittee on Commerce, Justice, Science, and
            Related Agencies of the House Committee on Appropriations




                                       8
